CERTIFICATE OF WORD COUNT
NO. TBD
Michael Yamashita and Michael Yamashita, Inc.,
Petitioner(s),
v.
Scholastic Inc.,
Respondent(s).
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the MICHAEL YAMASHITA AND
MICHAEL YAMASHITA, INC. PETITION FOR WRIT OF CERTIORARI contains 3548 words, including the
parts of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
January 13, 2020

SCP Tracking: Harmon-101 South Third Street-Cover White

